QUALITY            REVIEW OF       PEAT MARWICK
     AND THE            CONTRACT AUDIT
             THE AEROSPACE
        FISCAL YEAR         SEPTEMBER 30,1995


   Number PO                           March 6,



         Office of     Inspector General
                          of Defense
Additional Copies

To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit of the Analysis, Planning, and Technical Support Directorate at (703) 6048937
(DSN 664-8937) or FAX (703) 604-8932.

Suggestions for Future Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate
at (703) 6048908 (DSN 664-8908) or FAX (703) 604-8932.                Ideas and requests
can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 4249098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
or by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




Acronyms

DCAA           Defense Contract Audit Agency
DOD            Department of Defense
GAAS           Generally Accepted Auditing Standards
GAS            Government Auditing Standards
KPMG           KPMG Peat Marwick
OMB            Office of Management and Budget
                                                                              March 6, 1998


Board of Trustees
The Aerospace Corporation
2350 East El Segundo Boulevard
El Segundo, CA 90009

Mr. Herbert K. Folpe
Partner-In-Charge, Public Services Practice
KPMG Peat Marwick LLP
345 Park Avenue
New York, NY 10154-0004

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219


SUBJECT:     Quality Control Review of KPMG Peat Marwick LLP
              and the Defense Contract Audit Agency
             The Aerospace Corporation
             Fiscal Year Ended September 30, 1995
             Report No. PO98-6-007

Introduction

       We are providing this report for your information and response. The Long Beach,
       California, office of KPMG Peat Marwick LLP (KPMG), and the West Covina,
       California, office of the Defense Contract Audit Agency (DCAA), performed the single
       audit for The Aerospace Corporation (Aerospace), El Segundo, California, for the
       fiscal year ended September 30, 1995. The audit was required by Office of
       Management and Budget (OMB) Circular A-133, “Audits of Institutions of Higher
       Education and Other Non-Profit Institutions.” For the fiscal year ended September 30,
       1995, Aerospace reported total Federal expenditures of $336,741,828, representing
       $332,279,955 for the Department of Defense (DOD) and $4,461,873 for other Federal
       agencies.

       The KPMG audit report is dated November 22, 1995. The KPMG issued an
       unqualified opinion on the financial statements, Schedule of Federal Awards, and
       individual reports on internal controls, and compliance requirements. The DCAA
     issued reports on internal controls and compliance requirements applicable to the
     Federal research and development program. The DCAA issued its audit reports on
     January 16, 1998. The DCAA issued a qualified opinion on common and specific
     requirements regarding the allowable costs/cost principles because of inadequate
     accumulation and reporting of costs under Federal awards at Aerospace.

     KPMG issued .positive and negative assurance statements on compliance with general
     requirements. Positive assurance means that, with respect to the items tested, the
     results of auditors’ procedures disclosed no material instances of noncompliance.
     Negative assurance means that, with respect to the items not tested, nothing came to the
     auditors’ attention that caused them to believe that Aerospace had not complied in all
     material respects.

     KPMG also obtained an understanding of the internal controls related to the financial
     statements and Federal awards. The audit report describes the auditors’ scope of work
     in obtaining that understanding and in assessing control risk. The report on internal
     controls further describes the significant internal controls and control structure,
     including reportable conditions, material weaknesses, and controls that provide
     reasonable assurance that Federal awards are being managed in accordance with
     applicable laws and regulations.


Quality Control Review Results

     The OMB Circular A-133 audit performed by KPMG and DCAA does not meet the
     applicable guidance and regulatory requirements in OMB Circular A-133 and its related
     Compliance Supplement, which incorporate Government Auditing Standards (GAS) and
     generally accepted auditing standards (GAAS). Deficiencies identified during our
     review of the KPMG and DCAA working papers need management’s attention. The
     deficiencies are discussed below.


Material Findings

     Report Submissions

     The DCAA did not issue its incurred costs audit report of Aerospace for the fiscal year
     ended September 30, 1995, until January 16, 1998. The OMB Circular A-133 requires
     that an auditee’s audit report be issued within 13 months of the auditee’s fiscal year
     end, unless the auditee obtains an extension from its cognizant Federal agency.
     Aerospace did not comply with this requirement. The DCAA did not issue its incurred
     costs audit report on time because of an outstanding audit issue related to claimed costs
     for retiree medical liability. However, the issue of those liability costs could have been
     included as a contingency in the audit report, and the report could have been issued on
     time. Failure to issue audit reports in a timely manner results in delays in the contract


                                              2
and grant closeout process. OMB Circular A-133 identifies sanctions available for
Federal agency use when an auditee does not submit a timely audit report. The
sanctions include, but are not limited to, withholding of future Federal awards and
payments related to unaudited award costs claimed.

Independent Auditors’ Report on Compliance With Specific Requirements

The Aerospace OMB Circular A-133 single audit report did not include a report on
compliance with specific requirements related to major programs because the required
audit work related to that area had not been performed. The audit work was not
performed because Aerospace did not properly coordinate its OMB Circular A-133
audit with the DCAA and KPMG. Had Aerospace properly coordinated the audit effort
by identifying the responsibilities of each audit entity, Aerospace would have known
that all areas requiring audit under the Circular had not been included. Consequently,
there is no assurance that Aerospace expenditures of Federal awards are in compliance
with the specific requirements of types of services allowed or unallowed, claims for
advances or reimbursements, amounts claimed for matching, level of effort and/or
earmarking, special reporting, and special tests and provisions.

Auditor Training

The DCAA auditors who performed the OMB Circular A-133 audit were not trained in
conducting audits in accordance with OMB Circular A-133. The GAS, section 3.3,
states, “the staff assigned to conduct the audit should collectively possess adequate
professional proficiency for the tasks required.” The DCAA auditors who participated
in the audit did not receive training related to the Circular’s requirements because
DCAA headquarters and regional officials did not require the training for auditors
performing OMB Circular A-133 audits. The lack of training resulted in the auditors
not considering many of the requirements of the Circular, including the requirements to
prepare a timely audit report and to coordinate their audit effort with the recipient and
KPMG. After the completion of our field work and after finding the same condition
during another quality control review, we discussed the condition with officials at
DCAA headquarters. DCAA personnel told us that DCAA is issuing a memorandum
explaining the importance of training specific to OMB Circular A-133 audits.
Specifically, the memorandum states that DCAA will issue guidance to its field offices,
reemphasizing the importance of OMB Circular A-133 audit training; update the
DCAA Contract Audit Manual to include guidance on OMB Circular A-133 audit and
reporting requirements; and update the DCAA course titled, “Audits at Educational
Institutions,” to place more emphasis on OMB Circular A-133 audits.
Immaterial Findings

     Statement in KPMG Report Relating to Type of Indirect Rates at Aerospace

     The KPMG audit report states that the DCAA intends to issue an Advisory Report on
     Predetermined Overhead Rates for the period October 1, 1994, through September 30,
     1995. This statement is not accurate. Indirect rates at Aerospace are not
     predetermined overhead rates, but rather are procurement-determined overhead rates.
     Predetermined rates are not subject to adjustment except for unallowable costs.
     Procurement-determined overhead rates are subject to adjustment based on an audit of
     incurred costs and subsequent negotiations by the Administrative Contracting Officer.

     Management Representation Letter

     Paragraph 91, Statement on Auditing Standard No. 68, Client Representations--Audits
     Performed Under OMB Circular A-133, requires an auditor to obtain certain written
     representations from management as part of an audit conducted to express an opinion
     on compliance with requirements that have a material effect on a Federal award
     program. The representations allow the auditor to apply procedures specifically
     designed to obtain corroborating information concerning matters that are the subject of
     the written representations. The management representation letter furnished to KPMG
     by Aerospace did not include specific representations related to an audit conducted in
     accordance with OMB Circular A-133. Specifically, the management representation
     letter did not include the representations from management that it is responsible for the
     entity’s compliance with the requirements of OMB Circular A-133 and that
     management has identified and disclosed to the auditor all laws and regulations that
     have a direct and material effect on the determination of financial statement amounts.
     Without the representations, the auditor will have difficulty in developing specific audit
     objectives directly related to that particular engagement and in expressing an opinion on
     the institution’s compliance with OMB Circular A-133.

     Independent Auditors’ Report on Compliance With General Requirements

     KPMG erroneously stated in its Independent Auditors’ Report on Compliance With
     General Requirements that it had applied procedures to test compliance with the
     allowable costs and cost principles applicable to Aerospace’s Federal awards programs.
     The procedures are required by the OMB Circular A-133 Compliance Supplement.
     KPMG representatives agreed that testing procedures were not performed, because the
     DCAA was performing the testing of allowable costs and cost principles related to
     Federal awards. The effect of KPMG not performing required testing, is that the audit
     report is misleading and provides false assurance to users of the report with respect to
     audit of allowable costs and cost principles.
Recommendations for Corrective Action

     1. We recommend that KPMG Peat Marwick LLP reissue its audit report for The
     Aerospace Corporation for the fiscal year ended September 30, 1995; qualify the report
     on compliance with general requirements for allowable costs and cost principles related
     to the audit of Federal awards; and eliminate the reference to “Predetermined Overhead
     Rates” in the introduction section.

     2. We recommend that The Aerospace Corporation:

             a. Obtain an audit of the specific requirements related to major programs
     consisting of types of services allowed or unallowed, claims for advances or
     reimbursements, amounts claimed for matching, level of effort and/or earmarking,
     special reporting, and special tests and provisions. Thereafter, issue an audit report on
     specific requirements related to major programs for the fiscal year ended September 30,
     1995.

             b. Coordinate all future Office of Management and Budget Circular A-133
     audits with the auditors. The coordination should include the preparation of a matrix
     that identifies the responsibilities each audit entity will assume.

            c. Provide future audit reports timely, in accordance with the reporting
     requirements of Office of Management and Budget Circular A-133.


Quality Control Review Objective

     The objective of a quality control review is to ensure that the audit was conducted in
     accordance with applicable standards and meets the auditing requirements of OMB
     Circular A-133. As a Federal oversight agency for Aerospace, we conducted a quality
     control review of the KPMG and DCAA audit working papers for their audit of
     Aerospace. We focused our review on the following qualitative aspects of the audit:
     due professional care, planning, supervision, independence, quality control, internal
     controls, substantive testing, general and specific compliance testing, and the Schedule
     of Federal Awards.

     We reviewed the most recent peer review letter issued by Price Waterhouse LLP for
     KPMG on November 8, 1996. The peer review letter found that KPMG met the
     objectives of the quality control review standards established by the American Institute
     of Certified Public Accountants and that the standards were being complied with during
     the fiscal year ended March 3 1, 1996.
Scope and Methodology

     We used the 1991 edition of the Uniform Quality Control Guide for Single Audits (the
     Guide) that was approved by the President’s Council on Integrity and Efficiency as
     guidance for performing the quality control review procedures. The Guide is organized
     by the general and field work audit standards and the required elements of a single
     audit. The Guide is further divided into the substantive audit work performed during
     the audit of financial statements and the specific program compliance testing for major
     programs. In addition, we supplemented the Guide to include additional review of
     transaction testing. Our review was conducted from October 2 through 6, and
     from October 9 through 10, 1997.

     Our quality control review of the audit working papers covered areas related to the
     financial statements, major programs, and nonmajor programs. The auditors
     considered two large Air Force contracts as separate major programs. The
     expenditures against the two major programs totaled about $332 million and accounted
     for 99 percent of total Federal award expenditures at Aerospace.

Results of Prior Quality Control Reviews

     We identified minor quality control review findings and recommendations at two of the
     eight KPMG locations we visited at various times between January 1, 1995, through
     July 31, 1997. The affected offices were notified, and no further action is necessary.

Background

     The Inspector General Act of 1978, Public Law 95-452, as amended, prescribes the
     duties and responsibilities of that office. In implementing those responsibilities, the
     Inspector General is required to “take appropriate steps to assure that any work
     performed by non-Federal auditors complies with the standards established by the
     Comptroller General. ”

     The Single Audit Act of 1984 (Public Law 98-502) was intended to improve the
     financial management of state and local governments whose total annual expenditures
     are $100,000 or more with respect to Federal financial assistance programs; establish
     uniform requirements for audits of Federal financial assistance; promote efficient and
     effective use of audit resources; and ensure that Federal departments and agencies rely
     on and use the audit work done under the Act, to the maximum extent practicable.

     The Single Audit Act Amendments of 1996, based on 12 years of experience under the
     1984 Act, are intended to strengthen the usefulness of single audits by increasing the
     audit threshold from $100,000 to $300,000 in Federal financial assistance before an
     audit is required under the Act; by selecting programs to be audited on the basis of risk
     assessment rather than the amount of funds involved; and by improving the contents
     and timeliness of single audits. The Amendments also bring nonprofit organizations,


                                              6
      previously covered by similar requirements in the OMB Circular A-133, under the
      Single Audit Act.

      The OMB Circular A-133 establishes the Federal audit and reporting requirements for
      nonprofit and educational institutions whose Federal awards are or exceed $100,000.
      The Circular provides that an audit made in accordance with the Circular shall be in
      lieu of any financial audit required under individual Federal awards. An agency must
      rely on the audit to the extent that it provides the information and assurances that an
      agency needs to implement its overall responsibilities. The coordinated audit approach
      provides for the independent public accountant, Federal auditor, and other non-Federal
      auditors to consider each other’s work in determining the nature, timing, and extent of
      their respective audit procedures. The Circular also requires that the cognizant agency
      obtain or conduct quality control reviews of selected audits made by non-Federal
      auditors and provide the results, when appropriate, to other interested organizations.
      The revised Circular was issued on June 24, 1997, to incorporate the changes in the
      Single Audit Act Amendments of 1996. Its provisions apply to audits of fiscal years
      beginning after June 30, 1996.


Discussion of Results

      During our quality control review, we reviewed and took no exception to the working
      papers supporting the following reports and schedules.

      Independent Auditors’ Report. The auditor is required to obtain reasonable
      assurance about whether the financial statements are free of material misstatement. We
      reviewed the audit program and the testing of evidential matter to determine whether
      testing was sufficient, based on assessment of control risk, to warrant the conclusion
      reached and whether the working papers supported the conclusion.

      Independent Auditors’ Report on the Internal Control Structure Based on an
      Audit of Financial Statements Performed in Accordance with Government
      Auditing Standards. The auditor is required to obtain an understanding of the internal
      control structure that is sufficient to plan the audit and to assess control risk for the
      assertions embodied in the financial statements. We reviewed the audit program for the
      appropriate procedures, the working paper documentation, and the substantive testing
      performed.

      Independent Auditors’ Report on Compliance Based on an Audit of Financial
      Statements Performed in Accordance With Government Auditing Standards. The
      auditor is required to determine whether the recipient has complied with laws and
      regulations that may have a direct and material effect on the determination of financial
      statement amounts. We reviewed the audit program for the appropriate procedures, the
      working paper documentation, its support, and the compliance tests performed.



                                              7
Independent Auditors’ Report on the Schedule of Federal Awards. The auditor is
required to subject the schedule to the auditing procedures applicable to the audit of the
financial statements and to ensure that the amounts are fairly stated in relation to the
basic financial statements. Our review was included in the steps of evaluation of the
audit working papers related to the Independent Auditors’ Report.

Independent Auditors’ Report on the Internal Control Structure Used in
Administering Federal Awards. The auditor is required to obtain an understanding of
the internal control structure to assess control risk to determine whether to place
reliance on the internal control structure. The auditor must perform tests of controls to
evaluate the effectiveness of the design and operation of the policies and procedures in
preventing or detecting material noncompliance, to review the system for monitoring
subrecipients and obtaining and acting on subrecipient audit reports, and to determine
whether controls are effective to ensure that direct and indirect costs are calculated and
billed in accordance with the general requirements in the Compliance Supplement. We
reviewed the audit program for the appropriate procedures, the working paper
documentation, and the results of the testing of controls.

Independent Auditors’ Report on Compliance With General Requirements. The
auditor is required to determine whether the recipient has complied with laws and
regulations that may have a direct and material effect on any of its major Federal
programs. General requirements are those that could have a material effect on the
recipient’s financial statements including those prepared for Federal programs. The
auditors’ procedures were limited to those prescribed in the OMB Circular A-133
Compliance Supplement. We reviewed the audit program for the appropriate
procedures, compared the audit program steps to those in the Compliance Supplement
to make sure that all areas were audited, reviewed the working paper documentation
and its support, reviewed the compliance tests performed, and reevaluated selected
compliance items.

Schedule of Current Year Findings and Recommendations. The auditor is not
required to, but may report immaterial findings in the audit report or report them to the
recipient in writing in a separate communication. The recipient is responsible for
forwarding the findings to the Federal grantor agencies. We traced the findings in the
working papers to the audit report to make sure that it includes all findings identified in
the working papers and that the findings are properly supported. We noted that there
were no repeat audit findings that remain unresolved from the prior year’s audit. A
complete list of all audit findings is in Enclosure 1.
Comments

       Because this report contains findings and recommendations, written comments are
       required. Please provide your comments by April 27, 1998. If you have questions on
       this report, please contact Ms. Barbara Smolenyak, Program Director, at
       (703) 604-8761. The report distribution is in Enclosure 2.


                                               &
                             q      Robert . Lieberman
                                 Assistant Inspector General
                                         for Auditing


Enclosures
                            The Aerospace Corporation
                      Fiscal Year Ended September 30, 1995
              Summary of Current Year Fiidings and Recommendations



KPMG Peat Marwick LLP

                   Description       Questioned Costs        Resolution Agency
                 Reconciliations            n/a                    DOD


Defense Contract Audit Agency

Page no.           Description       Questioned Costs        Resolution Agency
    4            Indirect Costs       !§26,578,460                   DOD



Acronym and Abbreviation

DOD         Department of Defense
n/a         Not Applicable




                                                                      Enclosure 1
                                The Aerospace Corporation
                          Fiscal Year Ended September 30, 1995

                                        Distribution List

The Board of Trustees
The Aerospace Corporation
2350 East El Segundo Blvd.
El Segundo, CA 90009

KPMG Peat Maxwick LLP
Attn: Jim Weir
725 South Figueroa Street, Suite 2500
Los Angeles, CA 90017-5424

KPMG Peat Marwick LLP
1 World Trade Center, Suite 1700
Long Beach, CA 90831-1700

Commander
Defense Contract Management Command
8725 John J. Kingman Road, Suite 4539
Fort Belvoir, VA 22060-3060

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219

Director, Defense Procurement
Office of the Under Secretary of Defense
 for Acquisition and Technology
3060 Defense Pentagon
Washington, DC 20301-3060

Director, Defense Research and Engineering
Office of the Under Secretary of Defense
 for Acquisition and Technology
3030 Defense Pentagon
Washington, DC 20301-3030

Chief, Office of Naval Research
800 North Quincey Street
Arlington, VA 22217-5660




                                                                 Enclosure 2
Evaluation Team Members

This report was prepared by the Financial and Performance Audits Directorate, Office
of the Deputy Assistant Inspector General for Audit Policy and Oversight, DOD.         ’


Barbara E. Smolenyak
Andrew Katsaros
Vera J. Garrant
Sunil R. Kadam
Nancy C. Cipolla
Janet C. Johnson
